Audit of USAID/Madagascar’s Performance Monitoring of
Road and Rail Repair and Reconstruction for Southern Africa
Flood Relief Supplemental Appropriations
Audit Report No. 4-687-04-006-P
April 15, 2004




            PRETORIA, SOUTH AFRICA
April 15, 2004

MEMORANDUM
FOR:             Acting Mission Director, USAID/Madagascar, Stephen M.
                 Haykin

FROM:            Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:         Audit of USAID/Madagascar’s Performance Monitoring of Road
                 and Rail Repair and Reconstruction for the Southern Africa Flood
                 Relief Supplemental Appropriations (Report No. 4-687-04-006-P)

This memorandum is our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments, in their entirety, as Appendix II in this report.

There are no recommendations in this report; however, we issued a management
memo to the Mission with suggestions on improving the quality of your
performance monitoring on future projects.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                    1
[This page intentionally left blank.]




                                        2
Table of
Contents   Summary of Results .............................................................................................5

           Background ..........................................................................................................5

           Audit Objective ....................................................................................................7

           Audit Finding .......................................................................................................7

                Did USAID/Madagascar monitor performance related to farm-to-market road
                repair and national rail line repair and rehabilitation under the Southern Africa
                Flood Relief Supplemental Appropriations funding in accordance with
                USAID policies and procedures?.....................................................................7

           Management Comments and Our Evaluation ....................................................10

           Appendix I - Scope and Methodology ...............................................................11

           Appendix II - Management Comments ..............................................................13




                                                                                                                                    3
[This page intentionally left blank.]




                                        4
Summary of   In the year 2000, a series of tropical cyclones struck southern Africa and, as a result,
Results      the countries in this region experienced the worst flooding in a century. Madagascar
             experienced substantial wind, flood, and landslide damage affecting approximately
             300,000 of the country’s population and killing over 200 people. The national rail
             line and many rural tertiary roads and bridges were destroyed. The U.S. Congress
             responded to the needs of these countries by passing two emergency supplemental
             appropriations. A key priority of the funding was to rehabilitate the transport
             infrastructure (roads and railroads) to a standard that would mitigate against flood
             damage from future cyclones. USAID/Madagascar programmed $5.4 million from
             the emergency supplemental appropriations for the repair of farm-to-market roads
             (including the rehabilitation of the Manakara Port facilities) and $4.9 million for the
             repair and rehabilitation of the national rail line. (See pages 5-7.)

             The objective of this audit was to determine whether USAID/Madagascar monitored
             performance related to the repair and rehabilitation of farm-to-market roads and the
             national rail line under the Southern Africa Flood Relief Supplemental
             Appropriations funding in accordance with USAID policies and procedures. (See
             page 7.)

             The audit showed that USAID/Madagascar monitored performance related to the
             repair and rehabilitation of farm-to-market roads and national rail line in accordance
             with USAID policies and procedures. For example, the Mission ensured that the
             contractor was performing in accordance with the contract terms, evaluated the
             contractor’s performance, approved deliverables and performance reports, and
             maintained adequate documentation. As a result, the Mission was successful in
             rehabilitating and repairing: (1) 233 kilometers of tertiary and farm-to-market
             roads, (2) 163 kilometers of the national rail line, and (3) three warehouses and a
             wharf at the port in Manakara. (See page 7.)

             USAID/Madagascar did not have any substantive comments on the draft report.
             Regarding the management memo, the Mission acknowledged our suggestions in
             improving the quality of their performance monitoring of on-going and future
             projects. (See page 13.)

Background   From February through May 2000, three cyclones struck southern Africa resulting in
             the worst flooding in this region in a century. Over 1,000 people were killed and
             more than two million people were affected. Hardest hit was Mozambique;
             however, Madagascar and other southern African countries suffered serious damage
             as well. In Madagascar, the cyclones caused substantial wind, flood and landslide
             damage, affecting approximately 300,000 of the population and killing over 200
             people. One third of the entire country experienced extensive agricultural crop loss
             and economic infrastructure damage. The Fianarantsoa-Manakara Côte Est (FCE)
             rail line, the only source of reliable transportation for over 100,000 people, was
             severely damaged by mudslides, washouts and floods, which also destroyed many
             rural tertiary roads and bridges. The damaged roads and rail line cut off farmers and


                                                                                                  5
consumers from market outlets. It was estimated that more than one million people
would ultimately face long-term livelihood deterioration due to cyclone damage.




Map of Madagascar, a large island in the Indian Ocean off the eastern coast of southern Africa.
Most of USAID cyclone rehabilitation activities took place in the province of Toamasina and in
the southern part of the country in the Fianarantsoa Province.
(Map source: http://www.travel.guardian.co.uk/country/popup/1,8958,Madagascar,00)

To provide assistance for the southern African countries affected by the cyclones,
the U.S. Congress appropriated emergency supplemental appropriations funding of
$25 million in fiscal year 2000 and an additional $135 million in the following fiscal
year. USAID/Madagascar received $17 million from the emergency supplemental
appropriations funding, enabling the Mission to carry out rehabilitation and
mitigation activities. One of the key priorities for the funding was to rehabilitate
transport infrastructure (roads and railroads) to a standard that would mitigate
against flood damage from future cyclones. USAID/Madagascar identified 233
kilometers of roads in two provinces, structures at the Port of Manakara, and the
severely damaged FCE railroad that needed to be rehabilitated. Of the emergency
supplemental appropriations funding received, USAID/Madagascar programmed
$5.4 million for the repair of the roads and rehabilitation of the Manakara Port, and
$4.9 million for the repair and rehabilitation of the FCE rail line. The remaining
funds were programmed for other rehabilitation and mitigation activities.

To implement these activities, USAID/Madagascar awarded two separate
contracts—one for the roads and port, and another for the railroad—to a
management firm to provide technical services to repair, rehabilitate and stabilize
the damaged structures. Both contracts consisted of two components—
engineering and construction. For the roads and port, the management firm
subcontracted with a local engineering firm to provide the engineering services


                                                                                                  6
                and with approximately nine local construction firms to perform the physical
                rehabilitation work. A slightly different approach was used for the railroad
                rehabilitation work. The management firm provided the engineering services
                while subcontracting for the construction services.

                Our audit covered the period of December 2000 through June 2003, during which
                the road, railroad and port repair and rehabilitation activities were completed.


Audit           This audit was conducted by Regional Inspector General/Pretoria as part of a
Objective       comprehensive plan to provide performance and financial audit coverage of
                activities funded by the Southern Africa Flood Relief Supplemental
                Appropriations. The audit was performed to answer the following question:

                Did USAID/Madagascar monitor performance related to farm-to-market road repair
                and national rail line repair and rehabilitation under the Southern Africa Flood Relief
                Supplemental Appropriations funding in accordance with USAID policies and
                procedures?

                Appendix I contains a complete discussion of the audit's scope and methodology.


Audit Finding   Did USAID/Madagascar monitor performance related to farm-to-market road
                repair and national rail line repair and rehabilitation under the Southern
                Africa Flood Relief Supplemental Appropriations funding in accordance with
                USAID policies and procedures?

                USAID/Madagascar monitored performance related to farm-to-market road repair
                and national rail line repair and rehabilitation in accordance with USAID policies
                and procedures.

                In accordance with USAID’s Automated Directives System (ADS), Chapter 202,
                the Mission assessed the performance of the contractor to ensure that the
                contractor was performing in accordance with the terms contained in the contract.
                The Mission accomplished this by carrying out the following monitoring
                responsibilities as outlined in the ADS:

                       •   reviewing and approving deliverables and performance reports
                       •   maintaining a Cognizant Technical Officer’s (CTO) workfile
                       •   reporting variations, proposed substitutions and problems
                       •   recommending modifications
                       •   analyzing financial reports
                       •   approving interim payments
                       •   preparing annual Contractor Performance Reports




                                                                                                    7
To monitor the repair and rehabilitation work on the roads and port, the Mission
identified four indicators to measure the contractor’s progress: the number of
kilometers of road repaired, the number of road-user associations created, the
percentage of wharf stabilized and the number of warehouse roofs repaired.




Photograph of a portion of Road RNT14, near the Village of Volohosy, with the railroad running
beside it. This road and railroad were both damaged by cyclones. (Photo by contractor personnel,
October 2001)




Photograph of the same portion of Road RNT14, with railroad, showing the repair and
rehabilitation work conducted by the Mission. (Photo by contractor personnel, August 2002)

To monitor the railroad repair and rehabilitation work, the Mission identified
seven indicators including measuring the length of track stabilized, the number of



                                                                                                   8
locomotives functioning, and the number of drains or culverts rehabilitated and
constructed. Using these indicators, the Mission reviewed deliverables from the
contractor such as workplans and quarterly and annual progress reports. The
progress reports summarized the contractor’s progress in relation to agreed-upon
milestones contained in the annual workplan, specified any problems
encountered, and indicated resolutions or proposed corrective actions.




         March 2000                         March 2001                     September 2002
Photographs of the same portion of the railroad, at kilometer 90, taken before, during and after
rehabilitation. The photo on the left, taken in March 2000, shows the damage to the railroad
caused by the cyclones. The photo in the center, taken in March 2001, shows the beginning efforts
of the repair and rehabilitation work. The photo on the right, taken in September 2002, shows the
railroad after the repair and rehabilitation efforts. (Photos by contractor personnel)

The Mission also maintained a detailed CTO workfile that contained documents
such as the contract and all amendments, workplans, quarterly progress reports,
copies of subcontracts, environmental studies, plan designs, and correspondence
with the contractors and the Government of Madagascar, as well as approvals that
were granted by the Mission. In addition, the Mission evaluated the contractor’s
performance at the interim and final stages of the contract. Furthermore, the
Mission held monthly meetings with the contractor and conducted periodic site
visits to observe work progress.

As a result, USAID/Madagascar successfully accomplished one of the key
priorities of the emergency supplemental appropriations funding—the
rehabilitation of transport infrastructure in that country. Through its implementing
partners, USAID/Madagascar rehabilitated and repaired: (1) 233 kilometers of
tertiary and farm-to-market roads, (2) 163 kilometers of the national rail line,1 and




1
  This included slope stabilization activities, improvements to drainage systems, interventions to
secure the track platform, investments in rolling stock, and community activities to protect the
railroad from erosion.



                                                                                               9
             (3) three warehouses and a wharf at the port in Manakara, as well as, created 33
             road-user associations2.

             The improved transport infrastructure in Madagascar has positively affected the
             economic environment in the two provinces where the repair and rehabilitation
             work took place. It has improved the communities’ income (profits and revenues)
             and quality of life. However, despite the noted accomplishments, we identified
             some areas in USAID/Madagascar’s monitoring performance that could be
             strengthened in future projects. Those areas were reported to the Mission in a
             separate management memo on March 8, 2004.



Management   USAID/Madagascar did not have any substantive comments on the subject draft
Comments     audit report.
and Our
             The Mission acknowledged the suggestions that were made in the management
Evaluation   memo and stated that the suggestions would improve the quality of their
             performance monitoring and management of on-going and future projects.

             The Mission also acknowledged the audit team for their professional conduct,
             objectivity, interest in the development activity, and their ability to provide advice
             to the Mission’s technical staff.




             2
              The road-user associations, composed of local farmers residing in the communities, were created
             and trained by the contractor to maintain the roads after completion to ensure a long-term
             beneficial impact.




                                                                                                                10
                                                                                      Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General, Pretoria conducted this audit in accordance with
              generally accepted government auditing standards. The audit was performed at
              USAID/Madagascar in Antananarivo, Madagascar and at the offices of the
              engineering firm and contractors. The fieldwork was conducted between
              December 1 and December 19, 2003. Site visits to various points in southern
              Madagascar were also conducted to observe the roads, railroad and port that were
              repaired and rehabilitated.

              The scope of this audit included an assessment of management controls associated
              with the systems used by the Mission to monitor the road and railroad rehabilitation
              activities. Specifically, we examined and assessed the following significant
              management controls: (1) developing a monitoring plan for tracking inputs and
              outputs; (2) establishing and maintaining a separate workfile for documents and
              correspondence related to the contracts and activities; (3) conducting site visits to
              evaluate progress; (4) documenting significant actions, meetings, or conversations
              with the contractors; (5) monitoring funds closely and on a regular basis; and (6)
              ensuring the accuracy of the reports submitted by the contractors. The audit also
              focused on examining and assessing management controls such as the Mission’s
              evaluation of its rehabilitation activities in response to the Federal Managers’
              Financial Integrity Act for fiscal years 2001 through 2003, its accuracy in reporting
              results to USAID/Washington, and its controls over the payment process.

              There were no prior audit findings affecting this area of review. At the time of
              our fieldwork, the activities under audit were complete. Our audit covered the
              period of December 2000 through June 2003, during which the roads, railroad and
              port repair and rehabilitation activities were completed. The scope of our audit
              included $10.3 million of emergency supplemental appropriation funds which
              USAID/Madagascar had programmed to repair and rehabilitate the damaged
              infrastructure. Specifically, $5.4 million was programmed for the repair of the
              roads and rehabilitation of the Manakara Port, and $4.9 million for the repair and
              rehabilitation of the FCE rail line.

              Methodology

              In order to gain an understanding of USAID/Madagascar’s monitoring process, we
              held discussions with officials from the Mission, the contractors, the engineering
              consulting firms, and members of the road-user associations. We also reviewed
              relevant project documentation.

              To accomplish the audit objective, we developed an audit program and performed
              the following tasks:




                                                                                                 11
•   Reviewed applicable laws, regulations, and USAID policy and guidance related
    to the audit objective.

•   Gained an understanding of USAID/Madagascar’s performance monitoring of
    road and rail repair and reconstruction by reviewing and analyzing applicable
    documentation such as, but not limited to, contracts, workplans, trip reports,
    quarterly progress reports, minutes of meetings, and financial reports.

•   Reviewed (on a judgemental basis) the financial data—specifically, vouchers
    submitted by the prime contractor—to determine whether USAID/Madagascar
    had reviewed them for accuracy and paid them in a timely manner.

•   Conducted site visits to the roads in the Fianarantsoa Province of Madagascar,
    the railroad and port to observe progress and interview contractor personnel
    regarding the projects.

•   Reviewed financial audit reports on the management firm that provided services
    for the road and railroad repair and rehabilitation activities.

We did not set a materiality threshold for this audit as the nature of the audit did
not lend itself to the establishment of such a threshold. However, we designed
our audit to address potential concerns such as:

•   inadequate oversight over rehabilitation activities that could increase the
    likelihood of contracting irregularities occurring.
•   inaccurate reporting on the status of contract activities.
•   lack of awareness of existing problems at the construction sites.
•   payments made for services not rendered.




                                                                                       12
                                                                                                  Appendix II


Management                    U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT
                                                        USAID/MADAGASCAR
Comments                                                Antananarivo, Madagascar



             MEMORANDUM

             TO:                       Jay Rollins, Regional Inspector General/Pretoria

             FROM:                     Stephen M. Haykin, Acting Mission Director, USAID/Madagascar /s/

             SUBJECT:                  Mission’s Response to the Draft Audit Report of USAID/Madagascar’s
                                       Performance Monitoring of Road and Rail Repair and Reconstruction
                                       for the Southern Africa Flood Relief Supplemental Appropriations

             DATE:                     April 1, 2004

             REFERENCE:                Draft Report


             The USAID/Madagascar Mission has reviewed the subject draft audit report and has no
             substantive comments.

             We acknowledge the four suggestions provided by the auditors during their audit and in their
             management memo dated March 8, 2004, including 1) developing and following monitoring
             plans; 2) ensuring that an adequate number of site visits are conducted during the projects’
             duration; 3) ensuring that all site visits and monthly meetings with the contractor are
             documented, and that such documentation is placed in the official project file; and 4) ensuring
             that adequate technical expertise is obtained to ensure the quality of the work performed. These
             audit suggestions will help us to improve the quality of our performance monitoring and
             management of on-going and future projects.

             We appreciate the professional conduct of your staff in performing this audit, particularly their
             ability to provide advice to the Mission’s technical staff, their objectivity, and their interest in
             the development activity.




             Clearances:     Claire J. Johnson, USAID Controller /s/
                             Lisa Gaylord, SO6 Team Leader /s/




                                                                                                                13
